I.

CERTIFICATION

The Petitioner, Appellant, Plaintiff, and the moving party, Linda Ames hereby
certifies as follows:
1.

The motion is based on the grounds that Petitioner has discovered irrefutable

proof that the entity claiming to be a trust, does not exist, and in order to evade
payment of taxes, has sworn to the State of New Jersey taxing authorities that they are
not a trust, individual or estate. However, when they foreclosed and appeared in the
cases, they claimed to be a trust. That said statement to the State of New Jersey was
under oath and, as a result, they had no legal capacity to foreclose. They even do not
have a taxpayer ID, putting N/A in the section where they were supposed to provide
it. This is a matter of GREAT importance, since in the county websites for the State
of New Jersey, a search revealed that not only did they swear this trust does not exist,
but the records for each county reveal more than a thousand entries which all say the
same thing, they are not a trust, estate or an individual. That means the foreclosure
and the appearances made all along the way by the “Defendant” or “Appellee” was
illegal, not authorized, and the foreclosure occurred by a ghost with no capacity to
sue. This Court must address this because there is a pandemic by these non-existent
trusts to avoid payment of taxes and making appearances claiming to be a trust in the
foreclosure actions, but then claiming under oath they are not trusts when the time
comes to pay the taxes on their flip of the property, where the income to each trust is
2

substantial. First, in the Appellees case, the lender was paid in full by taking and not
crediting the account with the private payment insurance proceeds. Then, they were
paid in full a second time when the lender settled their class action with the trust.
Then, a third time when the trust stole Ames home (recall, there was no sale, just a
transfer in California by the trustee after she was told the sale was cancelled), when
they sold her home on the open market for hundreds of thousands of dollars in profit,
yet recording a transfer of $ 10 to the buyer and evading taxes.
2.

The Petitioner just learned of the documents recorded in the State of New

Jersey, which conclusively proves that her claims that there was no trust are now
validated. It also conclusively proves that the court erred in dismissing her complaint
against this ghost non-existent trust; and it conclusively proves this court erred in
refusing to grant the petition for writ of certiorari.
The Petitioner, Appellant, Plaintiff is the moving party is Linda Ames. The responding
parties are Respondent HSBC BANK USA, National Association as Trustee for Wells
Fargo Asset Securities Corporation, Mortgage Pass-Through Certificates Series 2006AR16 (“Respondent”).
The evidence is so damning, this court must look at the recorded document itself
as IRREFUTABLE PROOF that this case must be fully considered by this Court. The
Defendant is not certified as a trust. It is a non-existent entity with no legal capacity
to sue. It claimed (by virtue of its very name) to be a Trust. It is, however not
3

registered as a Trust in the State of Washington, yet it is doing business in the State
unlawfully; and who literally stole the Appellants property after cancelling the
auction, instead transferring title in California.
This smoking gun must be considered by this court as finding the same required
going through thousands of deeds recorded in the State of New Jersey, all which have
the exact same Sellers Residency Certification / Exemption, and all of these HSBC,
Deutsche, etc. have the same exact remark checked off by the defrauding entity.
There are literally thousands of documents which say, “Seller is not an
individual, estate or trust and as such not required to make an estimated payment
pursuant to N.J.S.A. 54A: 1-1 et seq. which is New Jerseys statute requiring both
residents and non-residents who sell property in that state to pay taxes from their profit
on the sale. These are the deeds from the “Trust” as seller to the third party buyer
after the foreclosure sale transpired.

4

.
■

i

• ^

scuun* BraaitMCi et»wrt/motifcicjai=tB»i
£

**m.

-------------- --

H&K; OSS

ABeeare* HriVriSui IWWftjMM

gg^HiWiflwre

?r=**V

Pw«e?•
fgnUHSMTB1

S*

I BMW
I*;

wm

‘3S*»St
B

*»*« •*"**:
lEHMMSjryrgEi

Ba»'

^wagg;
troa

i.

itj'

* A.

^aSsgpiiW" “
tu«aa?|

irjg.B

0

3O
II 0 iy-i

swBfcw iaa^iir^ bBwafaiajiii^i^

!i|E
B □ ^^HSsekr®y,fe wBfwSifl.:ni^

-■°SB88SiiSB8Bge%^8»

'lOW'i ISt sb<

n'teofa.M

gipg**;!

r« i

:s»______S* I Hbci

L
'"•jTri'®:i£a&«>

dH1

ini
‘“s-4*1

*?•"»

. -*Mfe£

rSn^l

HSskianl Srscretai^

Book8544/Page1719

5

I DECLARE THAT THIS MOTION IS BEING MADE IN GOOD FAITH,
WITHOUT ANY INTENT TO DELAY THESE PROCEEDINGS.

IT IS

PRESENTED TO PROVIDE THIS COURT WITH IRREFUTABLE EVIDENCE
THAT THE FORECLOSING TRUST NOT ONLY DOES NOT EXIST, AND HAD
NO LEGAL CAPACITY TO FORECLOSE, BUT SWORE THAT IT WAS A
TRUST WHILE FORECLOSING, BUT WHEN IT CAME TIME TO PAY THE
TAXES ON THE PROFITS MADE FROM THE RESALE OF THE VARIOUS
HOMES, EVADES PAYMENT OF TAXES BY SWEARING UNDER PENALTY
OF PERJURY AND TAX FRAUD, THAT IT WAS NOT A TRUST. CAPACITY
TO SUE IS A FOUNDATION OF OUR CONSTITUTION AND THESE GHOST
ENTITIES ARE OPERATING ULTRA VIRES, AND THIS COURT MUST TAKE
A STAND AND STOP THIS CRIMINAL MISCONDUCT IN ITS TRACKS. THIS
IS OF GREAT PUBLIC IMPORTANCE AND SUCH URGENCY THAT THIS
COURT MUST CONSIDER THE MATTER. IF THE COURT CONSIDERS
TAKING UP A REVIEW, PETITIONER WILL RETAIN LOCAL ADMITTED
COUNSEL TO BRIEF AND ARGUE THIS MATTER BEFORE THE COURT.
I declare under Penalty of Perjury that the foregoing is true and correct.
Respectfully Submitted
LINDA AMES
APPELLANT
11920 NW 35TH AVENUE
VANCOUVER WA 98685
6

TEL: (360) 931-1797
E-mail: lindalouames@comcast.net
Appellant Pro Se

7

